                                  STATEMENT OF
                                ROGER C. VIADERO
                               INSPECTOR GENERAL
                        U.S. DEPARTMENT OF AGRICULTURE
                    BEFORE THE U.S. HOUSE OF REPRESENTATIVES
                  COMMITTEE ON AGRICULTURE, SUBCOMMITTEE ON
                  DEPARTMENT OPERATIONS, OVERSIGHT, NUTRITION,
                                  AND FORESTRY
                                    JUNE 27, 2001


Good afternoon, Mr. Chairman, and members of the Committee. We appreciate the opportunity

to testify about changes in the Food Stamp Program since the passage of the Personal

Responsibility and Work Opportunity Reconciliation Act of 1996, generally known as the

Welfare Reform Act, and the status and effectiveness of implementing Electronic Benefits

Transfer (EBT) systems in States to issue food stamp benefits. With me today are Gregory S.

Seybold, Assistant Inspector General for Investigations; and Richard D. Long, who was recently

appointed as the Assistant Inspector General for Audit.


Operation Talon

The Welfare Reform Act declared individuals ineligible to receive Food Stamp Program benefits

who are fleeing to avoid prosecution, custody, or confinement after conviction. At the same

time, it authorizes State agencies to provide the addresses of food stamp recipients to any

Federal, State, or local law enforcement officer for official purposes.


Capitalizing on this authorization, OIG began a law enforcement initiative known as “Operation

Talon” in conjunction with other law enforcement agencies across the United States to locate and

apprehend fugitives who may also be illegally receiving food stamp benefits. Operation Talon

was designed to carry out the intent of Congress by:




                                                 1
•   removing ineligible fugitive felons from Food Stamp Program rolls, thereby reducing

    program outlays;


•   removing fugitive felons from the streets in order to make our communities safer; and


•   demonstrating to States how to carry out the statutory provis ions on a continuing basis.


Since its inception in early 1997, Operation Talon has resulted in 7,481 arrests. Serious

crimes perpetrated by those arrested include homicide-related offenses (murder, attempted

murder, and manslaughter), sex offenses (child molestation, rape, and attempted rape),

kidnapping/abduction, assault, robbery, and drugs/narcotics violations. Exhibit A contains a

chart depicting, by State, the number of arrests and the related crimes.


EBT Implementation

The Welfare Reform Act provides that all States must issue food stamp benefits using an

Electronic Benefits Transfer (EBT) system by October 1, 2002, unless the Secretary provides

a waiver because the State faces unusual barriers to implementing an EBT system. The EBT

systems will ultimately replace food coupons. Currently, 42 States and the District of

Columbia have operational EBT systems issuing food stamp benefits. Forty States and the

District of Columbia use on- line systems that function similarly to debit cards used in ATM

systems. Two States use off- line systems, the so-called “smart cards.” Thirty- nine of the

States and the District of Columbia issue all food stamp benefits via EBT systems. Exhibit B

presents the status of EBT systems in each of the 50 States and the District of Columbia. The

Food and Nutrition Service (FNS) estimates that EBT systems now issue about 80 percent of

food stamp benefits.




                                             2
Nevada and Virginia have approved contracts for statewide implementation. California,

Mississippi, and West Virginia have selected EBT vendors. Delaware, Maine, Montana, and

Nebraska are in various stages from planning to considering bids resulting from requests- for-

proposal. While the number of States with operational statewide systems is impressive, some

States with significant caseloads are not yet operational statewide. For example, in

California, only San Bernardino and San Diego counties have operational EBT systems, yet

California accounts for $1.6 billion of the $15.1 billion in food stamp benefits issued in fiscal

year 2000. California has selected a contractor for statewide implementation, but Alameda

County will not roll out a pilot until August 2002, and Los Angeles County not until January

2003. At this point, it would not appear that California will meet the October 2002 deadline.

Indiana, with fiscal year 2000 issuances of about $271 million, has just started its pilot, and

Mississippi, with issuances of $226 million in fiscal year 2000, has selected a vendor, but the

contract has not been approved.


OIG’s Audit Efforts

OIG has taken an active role in monitoring and reviewing EBT systems, beginning in 1986

when we reviewed the Reading, Pennsylvania, EBT pilot project, the first in the nation. We

view our role as providing assurances to program managers that the systems are functioning

as intended, or reporting problems that need to be addressed so that the systems operate

properly. Reviewing these systems has been a high priority for OIG and remains so. OIG

has reviewed systems in 23 States, concentrating on those that have large caseloads. Overall,

our work has shown that EBT systems are working. Benefits in the correct amounts are

going to the right people. However, some issues need to be addressed to strengthen controls.




                                              3
   From time to time, we ha ve analyzed work completed at individual States and FNS’s

   headquarters to assess whether there are trends that need attention at the national level. In

   January 2001, we reported the following:


       •   Obligations at fiscal yearend were not accurately reflected in FNS’s accounting

           records because of flawed methodology for expunged benefits. Current-year

           obligations for food stamp benefits were understated, and prior year obligations

           remained in the accounting system even though no longer available to recipients.


       •   States did not always report the proper amount of expunged benefits within required

           timeframes. In fiscal year 1999, obligations were overstated in the FNS accounting

           system by $2.5 million.


       •   We identified more than 180 individuals in 7 States whose access to the State systems

           should have been removed because their job duties changed or they were no longer

           employed.


FNS has agreed to address these problems.


EBT Makes Fraud Detection Easier

OIG has supported the use of EBT systems to issue food stamp benefits. While EBT has not

eliminated trafficking, it has reduced the amount of street trafficking and makes it more difficult

for street traffickers to redeem program benefits. EBT systems provide an electronic record of

transactions and have made it easier to identify stores that may be trafficking. They also readily

identify the amount stolen from the program, which allows OIG to recover stolen funds through


                                                 4
the use of asset forfeiture restitution. In addition, recipients involved in trafficking can also be

identified, something not possible in the coupon system. As a result of EBT, more than 9,000

recipients have been removed from the program. From fiscal year 1996 to the present, we

estimate that losses to the Government resulting from EBT-related fraud are approximately

$49 million. We have conducted 386 EBT-related investigations. The EBT investigations have

resulted in 431 indictments, 354 convictions, and over $18 million in monetary results. During

the same time period, the amount of total program fraud, including food stamp benefits issued

through EBT systems and paper food coupons, is in the hundreds of million of dollars as

documented by the Food and Nutrition Service and my office.




That concludes my statement Mr. Chairman. I would be pleased to answers any questions you or

members of the committee may have.




                                                  5
CRIMES – UCR Categories        AZ CA CO CT DE DC FL GA IL IN KS KY MD MA MI MS MN MO NC NJ NY NV OH OK OR PA TX VA WA WI Totals
       Group A Offenses
Arson                           1                   1               2      2        1        1                        2        1     1     1 3                             16
Assault Offenses               20   5   9   4       3   5    23 13 26      4    17 73    7   4        2    10        45        2    34   1   2
                                                                                                                                           2 67            16   8   4     406
Bribery                                                                                                                                        5                            5
Burglary/Breaking and Entry     5   3   7           2   2    11       18   3
                                                                         4 7             2   6              8    4    44   4   1 3      7     68            1 3     3     216
Counterfeiting/Forgery          8   2   7               9     6       36   1
                                                                        11 10            2   6    3        16    5     9       2 11     7 5 191             6       3     356
Destruction of Property                                                  1 11                4              2          1          1     3      9            1              33
Drug/Narcotic Offense          116 36 15    3       4   15 14 361 52 12 46 35            14 16    1   21   67    9   224   7   2 148 1 111 3 252           34 22    9    1,650
Embezzlement                        2                                                        6                   4             2                            1              15
Extortion/Blackmail              1                                                                                                                                          1
Fraud Offenses                  22 313 4        4       6    2        8    5    63 35        21            10 25 175       3        12   4   13       83 18     3   27    856
Gambling Offenses                                                                   2                                                                                       2
Homicide Offenses                                       2   3     1   2          1 7          1             2         4              2                6  3 1               35
Kidnapping/Abduction                                        5                    1 2     1    1             1    1    1              2     1             1                 17
Larceny/Theft Offenses         35 14 48     3   1   1   15 16         123 1     25 71        22   3        27    7   89    1   4    37 12 27      4 110 23 13       3     735
Motor Vehicle Theft             2 1                      1 3           6            2    3    2             1         7              4    11         20 5 1                69
Pornography/Obscene Material
Prostitution Offenses                                                 4             2                                                                1          1          8
Robbery                         1   2                   9    27   6   5    4    6   7    2   1             5     1   35    1        86   1   2    2 12     7        1    223
Sex Offenses, forced                                          9   1   2    1        3    2            1    5          4              2               9          1         40
Sex Offenses, Nonforcible       1   2                                 2                                               1              1                                     7
Stolen Property Offenses            4                                      4    3        2   5    1        31        45        1    16                                   112
Weapon Law Violations           1   2       1       1   1    4        2             2        1              7         8              4       4        5             2     45
       Group B Offenses
Bad Checks                      3                       11   2        2    11   2   27       12 18         100                 21   7        3        23   3             245
Curfew/Loitering/Vagrancy                                                            1                                                                                    1
Disorderly Conduct              1                                          2         2                                                                              1     6
Driving Under the Influence    24   2                                 24   8    2                          5                   2             6        37                 110
Drunkenness
Family Offenses, Nonviolent         1                   1    5             8    3                          6         60                      2    1   9             1     97
Liquor Law Violations                                                               2                                                                                      2
Peeping Tom
Runaway                                                                                                                             2                                     2
Trespass of Real Property       2     3                                    6                                2                                        1                   14
All Other Offenses             34 16 23     8       30 42 24 161 35 43 73 487            6   81 16 38      43 19 289 54        2 361         10   1 22 217 7        15 2,157

         TOTALS                277 405 116 19 5     42 119 154 543 349 109 258 795 41 190 42 62 348 75 1,043 70 40 734 19 209 19 933 336 60 69 7,481



                                                                                    6                                                                                    Exhibit A
                              STATUS OF EBT SYSTEMS
                             FOR FOOD STAMP PROGRAM
                                  IN 50 STATES AND
                               DISTRICT OF COLUMBIA
                                   AS OF JUNE 2001


                    TYPE
                     OF
    STATE          SYSTEM                                 STATUS

Alabama            On-line    Statewide
Alaska             On-line    Statewide
Arizona            On-line    Statewide
Arkansas           On-line    Statewide
California         On-line    Pilots in San Bernardino and San Diego counties, a contractor
                              has been selected for a Statewide system pending State and
                              Federal approval
Colorado           On-line    Statewide
Connecticut        On-line    Statewide
Delaware                      Contractor selected, but State rejected the contract
Dist of Columbia   On-line    District-wide
Florida            On-line    Statewide
Georgia            On-line    Statewide
Hawaii             On-line    Statewide
Idaho              On-line    Statewide
Illinois           On-line    Statewide
Indiana            On-line    Pilot started
Iowa               On-line    Linn County
Kansas             On-line    Statewide
Kentucky           On-line    Statewide
Louisiana          On-line    Statewide
Maine                         Part of Northeast Coalition of States but did not enter into a
                              contract prior to expiration of the offered pricing – considering
                              whether to issue ne w request- for-proposal
Maryland           On-line    Statewide
Massachusetts      On-line    Statewide
Michigan           On-line    Expanding statewide
Minnesota          On-line    Statewide
Mississippi        On-line    Contractor selected, contract must now be approved by FNS
Missouri           On-line    Statewide
Montana                       Advanced planning document submitted to FNS
Nebraska                      Requests-for-proposal returned with bids for consideration
Nevada             On-line    Contractor selected, and contract approved
New Hampshire      On-line    Statewide



                                             7                                         Exhibit B
                  TYPE
                   OF
    STATE        SYSTEM                                 STATUS

New Jersey       On-line     Statewide
New Mexico       On-line     Statewide
New York         On-line     Statewide
North Carolina   On-line     Statewide
North Dakota     On-line     Statewide
Ohio             Off- line   Statewide
Oklahoma         On-line     Statewide
Oregon           On-line     Statewide
Pennsylvania     On-line     Statewide
Rhode Island     On-line     Statewide
South Carolina   On-line     Statewide
South Dakota     On-line     Statewide
Tennessee        On-line     Statewide
Texas            On-line     Statewide
Utah             On-line     Statewide
Vermont          On-line     Statewide
Virginia         On-line     Contractor selected, and contract approved
Washington       On-line     Statewide
West Virginia    On-line     Contractor selected, but contract not approved
Wisconsin        On-line     Statewide
Wyoming          Off- line   Statewide




                                            8                                 Exhibit B
